WAIVER

SUPREME COURT OF THE UNITED STATES

No, [20-1716
Melvin Trent Walker ‘Tom Wolf, Governor of PA, et al.

(Petitioner) Vv. (Respondent)

 

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Iam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: a lA lc 4a ph VéLen

(Type or print) Name |Claudia M. Tesoro

O mr. © ms. O mrs. O Miss
Firm Office of Attorney General

 

Address 1600 Arch St., Suite 300

City & State [Philadelphia, Pa. Zip
Phone 215-560-2908 | Email ctesoro @attorneygeneral.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Melvin Trent Walker, pro se
